No. ________________________________

IN THE SUPREME COURT OF THE UNITED STATES
___________________________
DANIEL JOHNSON,
PETITIONER,
v.
THE UNITED STATES OF AMERICA,
RESPONDENT.
_________________
On Petition For A Writ Of Certiorari To
the United States Court Of Appeals
For the Ninth Circuit
APPENDIX TO
A PETITION FOR A WRIT OF CERTIORARI
Laura Graser
Attorney at Law
Counsel of Record
Post Office Box 12441
Portland, Oregon, 97212
Telephone: 503-287-7036
Fax: 503-287-1365
graser@lauragraser.com
Attorney for Petitioner Johnson

INDEX TO APPENDICES
APPENDIX A-- Ninth Circuit Memorandum,
United States v. Daniel Johnson, 19-30028....................................... App-1
APPENDIX B -- The District Court's rulings:
(a) Order Re Pretrial Ruling on Jury Instruction (count 8)
CR 97 2/1/18.....................................................................App-12
(this document was filed "sealed" but the seal was lifted)
(b) Jury instruction on count 8 (aggravated sexual abuse) ......... App-13
(RT 1201-1204)
(c) Transcript, February 15, 2018: Rule of Specialty
Ruling: 2/15 RT 209-13....................................................App-17
(d) District Court decision, denying motion for a new
trial (regarding "traveling") (CR 296) ............................. App-24
2019 WL 267875 (not reported in F. Supp.)
APPENDIX C -- Superseding [final] indictment ................................. App-32
APPENDIX D -- Second Amended [final] Judgment,
United States v. Daniel Johnson, 14-cr-00482-MC-1 ..................... App-38
APPENDIX E -- Full text of the relevant statutes ................................ App-44

Case: 19-30028, 08/12/2020, ID: 11786019, DktEntry: 49-1, Page 1 of 11

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

App-1

FILED
AUG 12 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,

No.

Plaintiff–Appellee,

U.S. COURT OF APPEALS

19-30028

D.C. No. 6:14–cr–00482–MC–1

v.

MEMORANDUM*

DANIEL JOHNSON,
Defendant–Appellant.
Appeal from the United States District Court
for the District of Oregon
Michael J. McShane, District Judge, Presiding
Argued and Submitted July 7, 2020
Portland, Oregon
Before: BENNETT and MILLER, Circuit Judges, and PEARSON,** District Judge.
Concurrence by Judge BENNETT
Daniel Johnson was convicted of engaging in illicit sexual conduct in a
foreign place, in violation of 18 U.S.C. § 2423(c) and (e) (counts 1-6); traveling to
a foreign place with the intent to engage in illicit sexual conduct, in violation of 18

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36–3.
**

The Honorable Benita Y. Pearson, United States District Judge for the
Northern District of Ohio, sitting by designation.
App-1

Case: 19-30028, 08/12/2020, ID: 11786019, DktEntry: 49-1, Page 2 of 11

App-2

U.S.C. § 2423(b) (count 7); and crossing state lines with the intent to engage in a
sexual act with a person under 12, in violation of 18 U.S.C. § 2241(c) (count 8).
He timely appeals the district court’s denial of his pre-trial motions for discovery
and to dismiss the superseding indictment based on the rule of specialty; his
proposed jury instruction on count 8; and motion for a new trial or order of
acquittal with regard to counts 1 through 6. Johnson also, for the first time on
appeal, argues that a prospective juror’s statement during voir dire tainted the jury.
We have jurisdiction under 28 U.S.C. § 1291, and we affirm.
1.

Johnson argues that the superseding indictment, which imposed seven

of the eight counts on which he was convicted, should have been dismissed as a
violation of the rule of specialty. He also avers that discovery was warranted on
the doctrine’s applicability.
A district court’s finding that a superseding indictment does not violate the
rule of specialty is reviewed de novo. United States v. Andonian, 29 F.3d 1432,
1434 (9th Cir. 1994). Discovery rulings are reviewed for an abuse of discretion.
United States v. Soto-Zuniga, 837 F.3d 992, 998 (9th Cir. 2016) (citation omitted).
The rule of specialty prohibits a requesting nation from prosecuting an
“extradited individual for any offense other than that for which the surrendering
state agreed to extradite.” Quinn v. Robinson, 783 F.2d 776, 783 (9th Cir. 1986).
For the doctrine to apply, the criminal defendant must have been involved in

2

App-2

Case: 19-30028, 08/12/2020, ID: 11786019, DktEntry: 49-1, Page 3 of 11

App-3

“formal extradition proceedings” pursuant to a valid extradition treaty between
countries. See United States v. Valot, 625 F.2d 308, 310 (9th Cir. 1980). “Neither
deportation nor surrender other than in response to a demand pursuant to Treaty
constitutes extradition.” Oen Yin-Choy v. Robinson, 858 F.2d 1400, 1404 (9th Cir.
1988).
No extradition treaty existed between the United States and the Kingdom of
Cambodia at the time of Johnson’s removal. Therefore, the district court properly
found the rule of specialty to be inapplicable to his deportation from Cambodia.
The district court also correctly found the doctrine to be inapplicable when, in the
course of his removal from Cambodia, Johnson was transported through a South
Korean airport. Because Johnson was transited through the airport pursuant to
Article 17 of the United States-South Korea treaty, as opposed to extradited
pursuant to another provision, the rule of specialty had no bearing on the
superseding indictment.
2.

Johnson alleges the district court erred when it empaneled a jury

tainted by the comment of a prospective juror.
Ordinarily we review a district court’s determinations as to juror
impartiality, the scope and method of voir dire, and the manner of addressing
possible jury misconduct for abuse of discretion. United States v. Shryock, 342
F.3d 948, 971-73 (9th Cir. 2003); United States v. Mendoza, 157 F.3d 730, 733

3

App-3

Case: 19-30028, 08/12/2020, ID: 11786019, DktEntry: 49-1, Page 4 of 11

App-4

(9th Cir. 1998). Because Johnson failed to object to jury selection, however, our
review is for plain error. United States v. Lindsey, 634 F.3d 541, 550 (9th Cir.
2011). Under plain error review, we will reverse only if (1) there was error; (2) the
error was plain; (3) the error affected substantial rights; and (4) the error seriously
affected the fairness, integrity, or public reputation of the judicial proceedings.
United States v. Depue, 912 F.3d 1227, 1232 (9th Cir. 2019) (en banc).
Johnson, relying on our decision in Mach v. Stewart, 137 F.3d 630 (9th Cir.
1997), contends that a prospective juror’s comment during voir dire—regarding his
facial expression—directly contaminated five jurors who rendered verdicts.
Johnson’s reliance on Mach is misplaced. While the prospective juror’s comment
displayed subjective bias against Johnson, it did not rise to the level of the
repeated, inflammatory, expert-like comments made in Mach. Also, unlike in
Mach, defense counsel in the case at bar made no efforts to object to the comment,
request a curative instruction, or demand a mistrial. After dismissing the
prospective juror for cause, the district court made a number of instructions which
mitigated any possible prejudice. Given the overwhelming evidence against him,
Johnson has not shown a “reasonable probability” that the comment affected the
outcome. See United States v. Ameline, 409 F.3d 1073, 1078 (9th Cir. 2005) (en
banc).
3.

Johnson alleges the district court erred in denying him a new trial or

4

App-4

Case: 19-30028, 08/12/2020, ID: 11786019, DktEntry: 49-1, Page 5 of 11

App-5

alternatively a judgment of acquittal on counts 1 through 6 in light of our decision
in United States v. Pepe, 895 F.3d 679 (9th Cir. 2018), which held that the pre2013 version of 18 U.S.C. § 2423(c) did not apply to United States citizens living
abroad “unless they were traveling—meaning something more than being in
transit—when they had illicit sex.” Id. at 682.
The denial of a motion for a new trial is reviewed for abuse of discretion.
United States v. King, 660 F.3d 1071, 1076 (9th Cir. 2011). We review de novo a
district court’s denial of a motion for acquittal on the sufficiency of the evidence.
United States v. Ubaldo, 859 F.3d 690, 699 (9th Cir. 2017). “There is sufficient
evidence to support a conviction if, viewing the evidence in the light most
favorable to the prosecution, any rational trier of fact could have found the
essential elements of the crime beyond a reasonable doubt.” Id. (citation omitted).
Johnson argues that given our holding in Pepe, § 2423(c) does not reach his
conduct because he resided in Cambodia at the time of the sexual offenses and
therefore was not “traveling.” When we view the facts in the light most favorable
to the government, the record does not bear this characterization. The parties
stipulated that Johnson traveled from the United States to Cambodia on ten
separate occasions between 2005 and 2013. The periods during which each victim
was abused corresponded with the dates Johnson traveled to Cambodia. Johnson
would return to the United States after each of the charged acts of abuse.

5

App-5

Case: 19-30028, 08/12/2020, ID: 11786019, DktEntry: 49-1, Page 6 of 11

App-6

Jurors also heard evidence that Johnson made approximately 30 trips to
other parts of Southeast Asia between 2005 and 2013. Importantly, during the
nine-year period in which Johnson avers he resided in Cambodia, he maintained a
permanent residence in Oregon, held an Oregon driver’s license, and took other
actions consistent with that of a citizen of the United States traveling temporarily
overseas. On U.S. passport forms, for example, Johnson would describe his “trips
abroad” as “temporary” and listed multiple countries he planned to visit.
As the jury was presented with overwhelming evidence that Johnson was in
fact traveling when the illicit sexual acts occurred, the district court did not err in
denying Johnson a new trial or acquittal on counts 1 through 6.
4.

Johnson also challenges the district court’s jury instruction on count 8,

which charged aggravated sexual abuse under 18 U.S.C. § 2241(c). Johnson
objected to the government’s proposed jury instruction for count 8—which did not
require proof of a sexual act—and requested that the district court instead adopt an
instruction requiring the government to prove the commission of a sexual act. The
district court overruled his objection and adopted the government’s proposed
instruction requiring the jury to find that: (1) Johnson crossed a state line (2) with
the intent to engage in a sexual act with a person who is less than twelve years old.
We review de novo “whether the district court’s instructions omitted or
misstated an element of the charged offense.” United States v. Cherer, 513 F.3d

6

App-6

Case: 19-30028, 08/12/2020, ID: 11786019, DktEntry: 49-1, Page 7 of 11

App-7

1150, 1154 (9th Cir. 2008) (internal quotation marks omitted).
We identified the “essential conduct elements” of the aggravated sexual
abuse statute in United States v. Lukashov, 694 F.3d 1107, 1121 (9th Cir. 2012).
They are: (1) crossing a state line; (2) with intent to engage in a sexual act with a
child [under twelve]; and (3) engaging in or attempting to engage in a sexual act
with a child. Id. In light of Lukashov, the district court’s jury instruction regarding
18 U.S.C. § 2241(c) fell short in that it omitted the third element, requiring jurors
to find that Johnson engaged or attempted to engage in a sexual act with a child.
“Jury instructions, even if imperfect, are not a basis for overturning a
conviction absent a showing that they prejudiced the defendant.” Cherer, 513 F.3d
at 1155 (citation omitted). With its verdict on count three, the jury found that
Johnson had engaged in a sexual act with a minor victim. At trial, that victim
testified that his passport lists a 2002 birth date, that he lived at Johnson’s
orphanage between 2009 and 2013, and that Johnson abused him throughout that
entire period. Our review of the record leaves no doubt that the victim was under
twelve years old during Johnson’s conduct. We conclude that the omitted element
was “supported by uncontroverted evidence,” making it clear beyond a reasonable
doubt that the jury verdict would have been the same absent the error. Neder v.
United States, 527 U.S. 1, 18 (1999).
Accordingly, the omission of an element from the jury instructions

7

App-7

Case: 19-30028, 08/12/2020, ID: 11786019, DktEntry: 49-1, Page 8 of 11

App-8

constituted harmless error.
AFFIRMED.
__________________________________________
BENNETT, Circuit Judge, concurring:
In United States v. Lukashov, 694 F.3d 1107, 1121 (9th Cir. 2012), a case,
which like this one, arose in the District of Oregon, we made clear that the
“essential conduct” elements of an offense under 18 U.S.C. § 2241(c) include
“engaging in or attempting to engage in a sexual act with a child.” Id. We decided
Lukashov more than five years before this trial. When the government persuaded
the district court not to give Ninth Circuit Model Jury Instruction 8.168, which
included this element,1 the government did not identify Lukashov to the district

1

The instruction defines the elements as: “First, the defendant knowingly engaged
in a sexual act with [name of victim]; Second, at the time, [name of victim] was
under the age of twelve years; and Third, [the defendant crossed a state line with
the intent to engage in a sexual act with a person who was under the age of twelve
years] . . . The government need not prove that the defendant knew that the other
person engaging in the sexual act was under the age of twelve years.” Model
Crim. Jury Instr. 9th Cir. 8.168 (2010 ed.), http://www3.ce9.uscourts.gov/juryinstructions/sites/default/files/WPD/Criminal_Instructions_2019_12_0.pdf (last
updated Dec. 2019) (emphasis added).
The instruction which the district court erroneously gave, at the government’s
request, read in pertinent part: “In order for you to find him guilty of this charge
the government must prove each of the following elements beyond a reasonable
doubt: One, Mr. Johnson traveled across a state line between on or about June
23rd, 2011, and May 29, 2013; and two, Mr. Johnson traveled with the intent to
engage in a sexual act with a person who is less than 12 years old. Again, the
8

App-8

Case: 19-30028, 08/12/2020, ID: 11786019, DktEntry: 49-1, Page 9 of 11

App-9

court. It also did not identify Lukashov in its brief on appeal. We told the parties
before oral argument to be prepared to address Lukashov, and the government at
oral argument argued Lukashov was distinguishable because it was a venue case.
The government is wrong. It is wrong that Lukashov does not control, and thus the
government led the district court astray as to the jury instruction defining the
elements of a crime that carried a possible life sentence. And here Johnson was
sentenced to life for that crime. There is nothing to suggest that the government
intentionally failed to cite Lukashov—neither the government nor the defendant
cited Lukashov to either the district court or to us. But I am still very troubled by
that failure in the circumstances here.
The government argues on appeal that while the jury instruction was correct,
even if it was wrong, any error was harmless.2 I reluctantly agree that in the
circumstances here, the error was harmless “beyond a reasonable doubt.” Neder v.
United States, 527 U.S. 1, 17 (1999). “[T]he jury verdict would have been the
same absent the error.” Id.

government does not have to prove that Mr. Johnson actually engaged in a sexual
act with a person under 12, but must prove that he traveled with the intent to
engage in such conduct.” (emphasis added).
2
“In any event, the district court’s refusal to issue the Ninth Circuit model
instruction was—at most—harmless error . . . . The jury necessarily found that
Johnson had engaged in a sex act with a minor victim who was under 12.”
9

App-9

Case: 19-30028, 08/12/2020, ID: 11786019, DktEntry: 49-1, Page 10 of 11
App-10

The relevant issue was whether the defendant engaged in sex acts with a
child under 12, victim L.S. The defendant contends “[w]e do not know how old
[L.S.] was, and the defense could not explore that because with the court’s ruling,
LS age (under 12) was irrelevant. (His age under 18 was relevant for the other
counts.).” This argument has some force, and the problem was entirely of the
government’s making. But here, the jury saw pictures of L.S. taken during the
period of sexual abuse, saw L.S.’s passport photo with his birthdate, heard his
testimony, and made a special finding that Johnson knowingly engaged in a sex act
with L.S. In addition, L.S. testified that he lived at the Hope Transition Center
orphanage from 2009 through 2013,3 that Johnson began to sexually abuse him just
after his arrival, and that this abuse happened several times a week for four years.
The pictures of L.S. alone are compelling as to his age when the defendant abused
him. The omitted element from the jury instruction is thus “supported by
overwhelming evidence,” Neder, 527 U.S. at 17, and Johnson has shown no
evidence in the record to the contrary, nor has he shown what such evidence could
be.4

3

Based on his passport birthdate, L.S. was 7 years old when he arrived at the
orphanage in 2009.
4
Johnson admits that L.S. “was under 12 for most of his time at [the orphanage],”
but also argues that as a result of the erroneous jury instruction, the government
didn’t need to prove that there was any actual victim to convict on Count 8. True,
but it does not affect our harmless error analysis.
10

App-10

Case: 19-30028, 08/12/2020, ID: 11786019, DktEntry: 49-1, Page 11 of 11
App-11

I thus concur because the error here was harmless. But the government
should have done better than it did.

11

App-11

Case 6:14-cr-00482-MC

Document 97 *SEALED*

Filed 02/01/18

Page 1of1
App-12
RECEIVED

IN THE UNITED STA TES DISTRICT COURT
FOR THE DISTRICT OF OREGON

FEB 5 2018
FEDfX-\l. lTHJ,iC nrTF:\DER
IT(;J:!\F

UNITED STATES OF AMERICA,
Plaintiff,

Case No. 6: 14-cr-00482-MC

v.

ORDER RE: Pretrial Ruling on
Jury Instructions

DANIEL STEPHEN JOHNSON,
Defendant.

MCSHANE, Judge:
Government moves for a pretrial ruling on jury instructions. Defendant is charged on
Count 8 of the superseding indictment (Dkt. 40) with knowingly crossing a state line with the
intent to engage in a sexual act with a person who had not attained the age of 12 years in
violation of 18 U.S.C. § 2241(c).
The Ninth Circuit Model Jury Instruction for 18 U.S .C. § 224l(c) does not accurately
reflect the elements of proof required by 18 U.S .C. § 2241(c) as charged in Count 8. Specifically,
the Model Jury Instructions adds a third element of proof that is not required: "defendant
knowingly engaged in a sexual act with [name of victim] ".
Government's motion is GRANTED. The government will submit a proposed special
instruction that accurately reflects the elements found in § 224 (c).
IT IS SO ORDERED.
DATED this 1st day of February, 2018.
s/Michael J. McShane
Michael J. McShane
United States District Judge

I - ORDER RE: Pretrial Ruling on Jury Instructions

App-12

Case 6:14-cr-00482-MC

Document 289 Filed 11/02/18
JURY INSTRUCTIONS

Page 62 of 169
App-13
Page 1201

1

United States citizen at birth.

2

issued by the Secretary of State to a citizen of the United

3

States is proof of a United States citizenship for the period

4

during which the passport is valid.

5

A United States passport

For this offense, the government does not have to

6

prove that Mr. Johnson actually engaged in illicit sexual

7

conduct, but must prove that he travelled for the purpose of

8

engaging in such conduct.

9

not prove that Mr. Johnson traveled in foreign commerce for

In doing so, the government need

10

the sole and exclusive purpose of engaging in illicit sexual

11

conduct.

12

travel, and each may prompt in varying degrees the act of

13

making the journey.

14

A person may have different purposes or motives for

For this count, the government must prove beyond a

15

reasonable doubt that a dominant, significant, or motivating

16

purpose of Mr. Johnson's travel in foreign commerce was to

17

engage in illicit sexual conduct.

18

government must prove the sexual act was not merely

19

incidental to travel.

20

the illicit sexual conduct is illegal in the country to which

21

Mr. Johnson traveled.

22

In other words, the

The government does not have to prove

Count 8 of the indictment.

Mr. Johnson is charged

23

in Count 8 of traveling across a state line with the intent

24

to engage in a sexual act with a person who was less than

25

12 years old.

DEBORAH COOK, OFFICIAL COURT REPORTER
deborah_cook@ord.uscourts.gov
App-13

Case 6:14-cr-00482-MC

Document 289 Filed 11/02/18
JURY INSTRUCTIONS

Page 63 of 169
App-14
Page 1202

1

In order for you to find him guilty of this charge

2

the government must prove each of the following elements

3

beyond a reasonable doubt:

4

a state line between on or about June 23rd, 2011, and May 29,

5

2013; and two, Mr. Johnson traveled with the intent to engage

6

in a sexual act with a person who is less than 12 years old.

One, Mr. Johnson traveled across

7

Again, the government does not have to prove that

8

Mr. Johnson actually engaged in a sexual act with a person

9

under 12, but must prove that he traveled with the intent to

10

engage in such conduct.

11

In doing so, the government need not prove that

12

Mr. Johnson traveled across a state line for the sole and

13

exclusive purpose of engaging in a sexual act with a person

14

under 12.

15

for travel, and each may prompt in varying degrees the act of

16

making the journey.

17

A person may have different purposes or motives

For this Count, the government must prove beyond a

18

reasonable doubt that a dominant, significant, or motivating

19

purpose of Mr. Johnson's travel across a state line was to

20

engage in a sexual act with a person under 12.

21

words, the government must prove the sexual act was not

22

merely incidental to the travel.

23

Some definitions.

In other

The term "illicit sexual conduct"

24

means knowingly engaging in a commercial sex act with a

25

person, the victim, who is under 18 years of age; the

DEBORAH COOK, OFFICIAL COURT REPORTER
deborah_cook@ord.uscourts.gov
App-14

Case 6:14-cr-00482-MC

Document 289 Filed 11/02/18
JURY INSTRUCTIONS

Page 64 of 169
App-15
Page 1203

1

government does not have to prove the defendant knew the

2

victim was under the age of 18.

3

Or illicit sexual conduct means knowingly causing a

4

person who is under 18 years of age to engage in a sexual

5

act, one, by using force against that person, or two, by

6

threatening or placing that person in fear.

7

Or the term illicit sexual conduct means knowingly

8

engaging in a sexual act with a person, the victim, who has

9

attained the age of 12 years, but has not attained the age of

10

16 years, and is at least four years younger than the

11

defendant; the government does not have to prove that the

12

defendant knew the age of the victim, nor does it have to

13

prove the defendant knew the requisite age difference

14

existed.

15

Illicit sexual conduct also means knowingly engaging

16

in a sexual act with a person, the victim, who is under

17

12 years of age; the government does not have to prove the

18

defendant knew the victim was under the age of 12.

19

The term "sexual act" means contact between the

20

penis and the anus, involving penetration, however slight, or

21

contact between the mouth and the penis, or the mouth and the

22

anus, or penetration, however slight, of the anal opening by

23

a hand, finger, or any object, with the attempt to abuse,

24

humiliate, harass, or degrade the person, or to arouse or

25

gratify the sexual desire of the defendant or any other

DEBORAH COOK, OFFICIAL COURT REPORTER
deborah_cook@ord.uscourts.gov
App-15

Case 6:14-cr-00482-MC

Document 289 Filed 11/02/18
JURY INSTRUCTIONS

Page 65 of 169
App-16
Page 1204

1
2

person.
Or an intentional touching, not through the

3

clothing, of the genitalia of the person younger than

4

16 years old, with the intent to abuse, humiliate, harass, or

5

degrade the person, or to arouse or gratify the sexual desire

6

of the defendant, or any other person.

7

The term "commercial sex act" means any sex act, on

8

account of which anything of value is given or received by

9

any person.

10
11
12

The term "travel in foreign commerce" means travel
between any part of the United States and a foreign country.
On or about, the indictment charges the offenses

13

alleged occurred on or about a certain date.

14

necessary for the government to prove beyond a reasonable

15

doubt that the offense was committed on a date reasonably

16

near the date alleged in the indictment, it is not necessary

17

for the government to prove that the offense was committed

18

precisely on the date charged.

19

Although it is

Venue, Counts 1 through 6, for the offenses charged

20

in Counts 1 through 6, the government must prove it is more

21

likely true than not that Mr. Johnson was first brought to or

22

arrested in the District of Oregon, or that his last known

23

residence was in the District of Oregon.

24

facts by considering all the evidence and deciding what

25

evidence is more believable.

You decide these

This is a lower standard of

DEBORAH COOK, OFFICIAL COURT REPORTER
deborah_cook@ord.uscourts.gov
App-16

App-17
182

1
2

IN THE UNITED STATES DISTRICT COURT

3

DISTRICT OF OREGON

4

EUGENE DIVISION

5

HON. MICHAEL J. MCSHANE

6

COURTROOM NO. 2

7
8

UNITED STATES OF AMERICA,

9
10
11
12

Plaintiff,
vs.
DANIEL STEPHEN JOHNSON,
Defendant.

13

)
)
)
)
)Case No.
)6:14-cr-00482-MC
)
)Volume II of II
)
)Pages 182 to 228
)

14
15
16

REPORTER'S TRANSCRIPT OF PROCEEDINGS

17

WEDNESDAY, FEBRUARY 14, 2018

18

THURSDAY, FEBRUARY 15, 2018

19
20
21

APPEARANCES:

22
23

(See next page)

24
25

ccreporting.com
App-17

App-18
208

1

Government argues, that it's a standalone position

2

and all that happened was there was a

3

transportation.

4

So we feel the Court decides that

5

issue, not Mr. Olson, not Mr. Purkey, and not

6

anybody else.

7

THE COURT:

8

MR. WEINERMAN:

9

All right.
So just --

obviously, I would like the Court to rule in our

10

favor, but if the Court doesn't, we're requesting

11

the right to question both Mr. Olson and

12

Mr. Purkey.

13
14

Thank you.
THE COURT:

Will they be coming for

trial in any event?

15

MR. SWEET:

No, your Honor.

Jeff

16

Olson would not, and we do not anticipate Special

17

Agent Purkey coming either.

18

THE COURT:

So I'm prepared to rule

19

I'm not convinced by the defense argument, but if

20

you feel like you need to put additional comments

21

on the record --

22
23

Okay.

Thank you, your

THE COURT:

I went through and --

Honor.

24
25

MR. SWEET:

I'm sorry.

You know, last night I was getting a

ccreporting.com
App-18

App-19
209

1

little confused by some of the exhibits, the

2

numbering of them.

3

and this morning to try to get an understanding of

4

the arguments that's being put forward by the

5

defense.

6

understanding now of the facts.

I went through them last night

I think I have a much better

7

Mr. Johnson was transferred through

8

South Korea pursuant to Article 17 of the

9

extradition treaty between the United States and

10

South Korea.

11

Korea to authorize transportation through its

12

territory -- excuse me.

13

Korea to authorize transportation through its

14

territory a person surrendered to the United

15

States by a third state.

16

The treaty does allow either South

The treaty allows South

Under Article 17 -- get the language

17

here -- the request for transit shall be

18

transmitted through diplomatic channel or directly

19

between the Department of Justice in the United

20

States and the Ministry of Justice in Korea.

21

request for a transit must be -- must contain a

22

description of the person being transported and a

23

brief statement of the facts of the case.

24
25

The

Here, the Government did comply with
Article 17, and I'm looking at Government's --

ccreporting.com
App-19

App-20
210

1

it's either Exhibit 2 in the old packet or 37

2

maybe in the new packet.

3

request transit through diplomatic channels

4

through the Department of Justice in the United

5

States to the Ministry of Justice in South Korea,

6

and the request at various times either indirectly

7

or through emails by others described Mr. Johnson

8

and included a statement regarding his case.

9

Permission was granted by the

The Government did

10

Ministry of Justice of the Republic of Korea on

11

December 19, 2014.

12

This is Exhibit 4, and in all of

13

those correspondence is what we're really talking

14

about is transit under Article 17 of the treaty,

15

not a broader contemplation of extradition.

16

So the defense argues a number of

17

things.

First, it relies on Exhibit 7, which is

18

the verdict or judgment reached by the trial court

19

in Cambodia dealing with the criminal charges

20

there relating to minors -- related to minor

21

children against Mr. Johnson.

22

that document, Exhibit 7, page 7, it's clear that

23

the attorneys representing the victims and the

24

plaintiffs are requesting the maximum sentence

25

allowed by laws because the acts were against the

ccreporting.com
App-20

And on page 7 of

App-21
211

1

kids, and that the judge decided to permanently

2

ban the defendant from residing in Cambodia in

3

accordance with Article 48 of the law on

4

suppression of human trafficking and sexual

5

exploitation.

6

So it seems to me they were asking

7

the trial court as part of the criminal judgment

8

to ban Mr. Johnson from residing in Cambodia under

9

a specific criminal law.

10

Looking at the document further, the

11

judge declined -- that's on page 10 of that

12

document -- the judge declined the request.

13

court went on to sentence Mr. Johnson to one year

14

in jail for the crime of indecent acts against a

15

minor under the age of 15.

16

to the Phnom Penh Court of Appeal and the Court of

17

Appeals upheld his conviction.

18

The

Mr. Johnson appealed

So the only thing I really take away

19

from that document is that the sentencing judge

20

did not permanently ban Mr. Johnson from Cambodia

21

as part of his criminal sentence.

22

clear he also did not enjoin other government

23

actors from deporting Mr. Johnson.

24

"deportation" is not used.

25

that Mr. Johnson was in Cambodia in violation of

The word

And the fact remained

ccreporting.com
App-21

However, it's

App-22
212

1

Cambodian law because he failed to possess a

2

passport.

3

So looking at a combination of

4

exhibits and, yes, I mean, would I like a more

5

concrete document that puts forth the actual order

6

of deportation or the letter of notice?

7

not part of the exhibits, but I have numerous

8

exhibits in which these documents are referenced,

9

and they are in evidence.

10

That's

There was no objection

to them.

11

And from those exhibits,

12

specifically looking at, for instance, Defendant's

13

Exhibit 12 and Exhibit 9, I can glean from the

14

facts that upon his release from custody upon his

15

criminal sentence, Mr. Johnson was taken into

16

custody by the Cambodian General Department of

17

Immigration.

18

think briefly, to an immigration facility.

19

letter of deportation was served and he was turned

20

over to the FBI for escort on his deportation to

21

the United States.

It appears he was taken, albeit, I
A

22

There's nothing in the record to

23

suggest the sentencing court, in failing to ban

24

Mr. Johnson under a sex trafficking section of

25

their criminal code, had any jurisdiction to

ccreporting.com
App-22

App-23
213

1

enjoin the Immigration Department from deporting

2

Mr. Johnson for being in the country without a

3

passport.

4

Defense also relies on an email

5

exchange between Michael Surgalla, an attorney

6

with the Department of Justice, and Joo-yeon Jo --

7

this is Exhibit 3.

8

prosecutor with the International Criminal Affairs

9

Division in South Korea.

Joo-yeon Jo is deputy director

From the emails, it's

10

clear that Ms. Joo-yeon Jo had a concern over an

11

issue of dual criminality.

12

concern, however real -- I'm not doubting she

13

expressed what she expressed, but the concern was

14

misplaced under Article 17 of the extradition

15

treaty.

16

I'm finding that

The United States was not required

17

to establish dual criminality under the request

18

for transit.

19

brief description of the facts of the case and to

20

identify the person being transported.

21

They were only obligated to give a

So I'm denying the motion to dismiss

22

counts.

23

from South Korea, but a transit under Article 17.

24

If anybody wishes me to supplement

25

I'm finding this was not an extradition

the record more with additional facts, I'm happy

ccreporting.com
App-23

Case 6:14-cr-00482-MC

Document 297

Filed 01/17/19

Page 1 of 8
App-24

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON

UNITED STATES OF AMERICA,
Plaintiff,

Case. No. 6:14-cr-00482-MC
ORDER

V.

DANIEL JOHNSON,
Defendant.

MCSHANE, Judge:
After eleven days of trial in May of 2018, a jury found Defendant Daniel Johnson guilty
of crimes involving the sexual assault of multiple children in the Kingdom of Cambodia. As to
Counts 1 through 6 of the Superseding Indictment, the jury found Mr. Johnson guilty of
"traveling in foreign commerce and engaging in illicit sexual conduct in a foreign place" in
violation of Title 18, U.S.C. § 2423(c) and (e)." Verdict Form 1-4, ECF No. 234.
Following Mr. Johnson's.convictions and prior to the imposition of sentence, the Ninth
Circuit clarified the scope of§ 2423(c) in United States v. Pepe, 895 F.3d 679 (9th Cir. 2018).

Mr. Johnson now argues, among other things, that he is entitled to a new trial or post-verdict
acquittal because he was a resident of Cambodia at the time of the sexual assaults and that Pepe
requires that the illicit sexual conduct occur during a period of travel. Def.'s Mot. 1-2, ECF No.
267. Because the evidence at trial supported a finding that Mr. Johnson was guilty of "traveling
in foreign commerce and engaging in illicit sexual conduct in a foreign place," Mr. Johnson's
motion is DENIED.

I-ORDER

App-24

Case 6:14-cr-00482-MC

Document 297

Filed 01/17/19

Page 2 of 8
App-25

STANDARDS
A court "may vacate any judgment and grant a new trial if the interest of justice so
requires." Fed. R. Crim. P. 33(a). Motions for a new trial should only be granted in exceptional
cases "in which the evidence weighs heavily against the verdict." See United States v. Del Toro-

Barboza, 673 F.3d 1136, 1153 (9th Cir. 2012). A court also may set aside a guilty verdict and
enter an acquittal. Fed. R. Crim. P. 29(c). A court may do so where, viewing the evidence in the
light most favorable to the prosecution, no rational trier of fact could have found the essential
elements of the crime beyond a reasonable doubt. Jackson v. Virginia, 443 U.S. 307,319 (1979)
(citation omitted); United States v. Nevils, 598 F.3d 1158, 1163-64 (9th Cir. 2010) (en bane).
DISCUSSION

I.

The "Travel" Element

Mr. Daniel Johnson is a U.S. citizen. Def.'s Mot. 6. At trial he stipulated that his last
known domestic residence was in the State of Oregon. Id.; Jury Instructions 20, ECF No. 230.
Although he travelled extensively to and from Cambodia, he maintained an Oregon driver's
license, listed Oregon as his permanent address on his U.S. Passport, held a bank account in
Oregon, applied for credit using his Oregon address, and owned a car in Oregon. Gov.'s Resp. 68, ECF No. 292.
The evidence at trial did not support Mr. Johnson's contention that he was a resident of
Cambodia. Mr. Johnson stipulated that between November of2005 and January of 2011, he
travelled back and forth between the United States and Cambodia numerous times:

Mr. Johnson traveled in interstate and foreign commerce between the United States and
Cambodia between on or about the following dates:
• November 28, 2005 (departing the U.S.) - December 6, 2005 (arriving in
Cambodia)
• January 11, 2007 (departing the U.S.) - January 12, 2007 (arriving in
2-ORDER

App-25

Case 6:14-cr-00482-MC

Document 297

Filed 01/17/19

Page 3 of 8
App-26

Cambodia)
• October 10, 2008 (departing the U.S.) - October 11 , 2008 (arriving in
Cambodia)
• October 22, 2009 (departing the U.S.) - October 23, 2009 (arriving in
Cambodia)
• June 8, 2010 (departing U.S.) - June 10, 2010 (arriving in Cambodia)
• January 18, 2011 (departing the U.S.) - January 19, 2011 (arriving in
Cambodia).

Mr. Johnson was present within the District of Oregon and then traveled in interstate and
foreign commerce between the United States and Cambodia on or about the following
dates:
• June 21, 2011 (in Oregon); July 5, 2011, (departed the U.S.) - July 7, 2011
(arrived in Cambodia)
• December 1, 2011 (in Oregon); December 20, 2011 (departed the U.S.) December 22, 2011 (arrived in Cambodia)
• July 24, 2012 (in Oregon); August 24, 2012 (departed the U.S.) - August 27,
2012 (arrived in Cambodia)
• November 19, 2012 (in Oregon); December 5, 2012 (departed the U.S.) December 7, 2012 (arrived in Cambodia)
• May 28, 2013 (in Oregon); May 29, 2013 (departed the U.S.) - May 30, 2013
(arrived in Cambodia).
Jury Instructions 20-21.
In addition to the stipulated travel, the evidence established two additional trips during
this same time period, as well as approximately thirty trips to Vietnam and Thailand. Gov.'s
Resp. 6.; see Def.'s Mot. 3. In his application forms for passports and visas documents, he
continued to list his permanent address during the relevant time period as 63341 Shasta Road in
Coos Bay, Oregon. Gov's Resp. 7. In 2006, he stated that he would be traveling for four months
in Cambodia, Thailand, Taiwan, and Vietnam in an application form he submitted to the U.S.
government. Id. In 2010 and 2013 he stated in similar applications that he was traveling in the
same countries for a six-month period. Id.

Mr. Johnson's ongoing travel between the United States and Cambodia was consistent
with his purported role as a missionary. While in Cambodia, Mr. Johnson would preach, engage

3-0RDER

App-26

Case 6:14-cr-00482-MC

Document 297

Filed 01/17/19

Page 4 of 8
App-27

in building projects, and maintain an unlicensed orphanage for select children whose parents
lacked the finances to raise them. See Def.'s Mot. 3, 6. To finance the orphanage, he would
regularly return to Oregon and Texas to raise funds. See Def.'s Mot. 2. Sadly, the institution he
was financing was one where the boys under his charge were subject to Mr. Johnson's sexual
predation. The evidence at trial established that young boys were subject to repeated acts of oral
and anal rape with systematic regularity. In at least one instance, we know that a boy who
refused to sexually pleasure Mr. Johnson was evicted to the streets. Mr. Johnson took advantage
of the most vulnerable residents of a country whose government is either unable or unwilling to
defend them. To say he was a resident of Cambodia would be calling the fox a resident of the
henhouse.
The facts that were presented to the jury in Mr. Johnson's case are not a reproduction of
the facts in United States v. Pepe. 895 F.3d 679 (9th Cir. 2018). Pepe is instructive in that it
illustrates the limitation on the prosecution of American citizens who live abroad and commit sex
crimes against children. What is clear from the holding in Pepe is that prior to its amendment in
2013, 1 § 2423(c) did not extend to citizens who were merely living abroad; rather, it was aimed
at prosecuting citizens who were traveling when they committed illicit sexual conduct. Pepe, 895
F.3d at 682. The focus of the statute is not on residency, but on travel. See id. at 691 (holding
that "a conviction under§ 2423(c), when based on a defendant's travel in foreign commerce,
requires proof that the illicit sexual conduct occurred while the defendant was traveling.").

Mr. Pepe travelled from the United States to Cambodia in March 2003. Pepe, 895 F.3d at
682. He gave away his vehicle, his computer, and other valuable items before leaving the United

1 Section 2423( c) originally targeted only U.S. citizens who resided in the United States, traveled overseas, and
committed sex crimes with minors. Pepe, 895 F.3d at 687. Congress' March 7, 2013 amendment expanded the
statute to encompass U.S. citizens who temporarily or permanently relocated overseas. See id.

4-0RDER
App-27

Case 6:14-cr-00482-MC

Document 297

Filed 01/17/19

Page 5 of 8
App-28

States. Appellant's Reply Brief at 11 n.28, Pepe, 895 F.3d 679 (No. CR-07-00168-DSF). He
rented a house, obtained a Cambodian driver's license, bought a car, got a job teaching at a
university, became involved with the Phnom Penh Veterans of Foreign Wars Post and the local
Catholic Church, and married a Cambodian woman. Pepe, 895 F.3d at 682. He occasionally
returned to the United States to visit family. Id. His last visit was to Los Angeles in August 2005,
where he stayed for one week to attend his daughter's wedding. Id. His illicit sexual conduct
occurred between three and nine months after he returned to Cambodia. Id. at 681. The Ninth
Circuit concluded that§ 2423(c) would not apply to Mr. Pepe if he resided in Cambodia and was
no longer traveling. Id. at 682. The Ninth Circuit overturned Mr. Pepe's conviction because the
Government had not met its burden with respect to the travel element. Id. at 691.
In contrast to Pepe, the jury here was presented with overwhelming evidence that Mr.
Johnson was still traveling at the time of the illicit conduct. While in Cambodia, Mr. Johnson
lived at the orphanage. Def.'s Mot. 3. He traveled from the United States to Cambodia eleven
times between 2005 and 2013. Gov.'s Resp. 5; see Jury Instructions 20-21. He never spent a
year in Cambodia without returning to the United States during the relevant time frame. Gov.'s
Resp. 6; see Jury Instructions 20-21. The periods during which each victim was abused
correspond with Mr. Johnson's trips to Cambodia, each of which involved a return to the United
States. Gov.'s Resp. 9. He had a car in the United States and applied for three credit cards using
his Oregon address in 2009 and 2011. Id. at 6--8. Finally, his own statements to the U.S.
government in 2006, 2010, and 2013 demonstrate that his travel in Cambodia and other
neighboring countries was intended to be temporary. Id. at 8.
While it has limited precedential value, the Ninth Circuit has reviewed the applicability
of§ 2423(c) in a Memorandum Opinion at least once since deciding Pepe. See United States v.

5-0RDER

App-28

Case 6:14-cr-00482-MC

Document 297

Filed 01/17/19

Page 6 of 8
App-29

Abramov, 741 Fed.Appx. 532 (9th Cir. 2018). As with Mr. Pepe and Mr. Johnson, Mr. Abramov

argued that the illicit acts that were alleged to have occurred abroad occurred when he resided in
Russia. The Ninth Circuit concluded that Abramov resided in Los Angeles because he had a Los
Angeles driver's license, his children and ex-wife lived there, and in 2013 he wrote to a member
of Congress that he had been a permanent resident there since 2000, though he had "visited"
Russia several times. Id. at 532. Moreover, each of the' charged acts took place soon after
Abramov traveled from California to Russia and soon before he returned to California. Id. Mr.
Johnson's case has much more in common with the facts that sustained Mr. Abromov's
conviction than that of Pepe.
As to Counts 1 through 6, the jury found Mr. Johnson guilty of "traveling in foreign
commerce and engaging in illicit sexual conduct in a foreign place." Verdict Farm 1-4. The jury
was instructed that "travel in foreign commerce" means "travel between any part of the United
States and a foreign country." Jury Instructions 34. There was ample evidence before the jury to
support their finding that Mr. Johnson was traveling in Cambodia at the time of the illicit acts.
Mr. Johnson has not presented evidence that "weighs heavily" against the verdict. See Del-ToroBarboza, 673 F.3d at 1153. Mr. Johnson has not met his burden of persuading this Court to grant

a new trial, and certainly not to enter an acquittal.
Given the ruling regarding Counts 1 through 6, this Court need not address Mr. Johnson's
spillover argument pertaining to Counts 7 and 8. See Def.'s Mot. 13-15; Gov.'s Resp. 10-14.

II.

Constitutionality of§ 2423(c)

Mr. Johnson renews his Motion to Dismiss Counts 1 through 6 of the Superseding
Indictment (ECF No. 59), arguing that§ 2423(c) is unconstitutional as applied to him because he
resided abroad and engaged in non-commercial sexual conduct. Def.'s Mot. 15-18.

6-0RDER
App-29

Case 6:14-cr-00482-MC

Document 297

Filed 01/17/19

Page 7 of 8
App-30

The Ninth Circuit upheld§ 2423(c) in United States v. Clark. 435 F.3d 1100, 1116
(holding that Mr. Clark's travel in foreign commerce and illicit commercial sex act "put the
statute squarely within Congress's Foreign Commerce Clause authority."), rev'd on other

grounds in Pepe, 895 F.3d 679. The Ninth Circuit declined to address the statute's
constitutionality in Pepe. See 895 F.3d at 690.
Further, as explained above, Mr. Johnson was not a resident of Cambodia at the time of
the illicit sexual conduct. He also gave food and shelter to each victim, in addition to money and
gifts in some cases. This falls under the definition of "commercial sex act." See Jury Instructions
34 (instructing that it is "any sex act, on account of which anything of value is given to or
received by any person."). The jury accordingly found that Mr. Johnson "knowingly engaged in
a commercial sex act" with each of the minors in Counts 1 through 6. Verdict Form, 1----4. Section
2423(c) is constitutional as applied to Mr. Johnson.

ID.

Alleged Brady Violations

Lastly, Mr. Johnson alleges that the Government failed to produce material impeachment
evidence in violation of Brady v. Maryland, 373 U.S. 83 (1963). Def.'s Mot. 19-22. Specifically,
he alleges that the Government was required to disclose any post-verdict communications
between government agents and witnesses who testified that he abused them because they may
have testified in pursuit of immigration-related benefits. Id. at 21. He also alleges that the
Government has failed to fully disclose payments made to witnesses and the Cambodian
National Police. Id.

Brady requires that the prosecution disclose exculpatory and impeachment evidence to
the defendant. United States v. Alvarez, 358 F.3d 1194, 1206 n.4 (9th Cir. 2004) (citing Brady,
373 U.S. at 87; United States v. Bagley, 473 U.S. 667 (1985)). A new trial is warranted where the

7-0RDER

App-30

Case 6:14-cr-00482-MC

Document 297

Filed 01/17/19

Page 8 of 8
App-31

evidence undermines the court's confidence in the outcome of the trial and there is a "reasonable
probability'' of a different result. United States v. Doe, 705 F.3d 1134, 1152-53 (9th Cir. 2013)
(citing Bagley, 473 U.S. at 682). In determining whether a new trial is warranted, courts consider
the cumulative effect of all the violations. Kyles v. Whitley, 514 U.S. 419,436 n.10 (1995).

Mr. Johnson cannot show that any potential Brady violation impacted the outcome of the
trial. The Government concedes that a witness asked an FBI victim witness specialist about
possible immigration benefits after the trial. Gov.' s Resp. 18. However, this does not raise
questions about his testimony, and it is consistent with the desires he evinced on the stand. He
and several other victims testified that they were interested in possible immigration benefits posttrial. Id. Therefore, Mr. Johnson's counsel had the opportunity to, and in fact did, cross-examine
them about their interests and discussed the issue at closing. Id. at 18-19. The Government also
maintains that it has disclosed all known payments to other entities and Mr. Johnson's counsel
discussed that in closing as well. Id. at 20-21. For these reasons, a new trial based upon newly
discovered evidence is not warranted.
CONCLUSION

Mr. Johnson has not shown that Pepe warrants a new trial, that§ 2423(c) is
unconstitutional, or that the Government committed a Brady violation warranting a new trial.
Therefore, Mr. Johnson's Motion is DENIED.
IT IS SO ORDERED.
DATED this 17th day of January, 2019.

\_ .

L·L--

Michael J. McShane
United States District Judge

8-ORDER

App-31

Case 6:14-cr-00482-MC

Document 40

Filed 05/17/17

Page 1 of 6
App-32

App-32

Case 6:14-cr-00482-MC

Document 40

Filed 05/17/17

Page 2 of 6
App-33

App-33

Case 6:14-cr-00482-MC

Document 40

Filed 05/17/17

Page 3 of 6
App-34

App-34

Case 6:14-cr-00482-MC

Document 40

Filed 05/17/17

Page 4 of 6
App-35

App-35

Case 6:14-cr-00482-MC

Document 40

Filed 05/17/17

Page 5 of 6
App-36

App-36

Case 6:14-cr-00482-MC

Document 40

Filed 05/17/17

Page 6 of 6
App-37

App-37

Case 6:14-cr-00482-MC

Document 328

Filed 07/30/19

Page 1 of 6
App-38

AO245C

Second Amended Judgment in a Criminal Case - DISTRICT OF OREGON CUSTOMIZED (Rev. 9/2017)
Sheet 1

Date of Original Judgment: February 1, 2019
(Or Date of Last Amended Judgment)
Reason for Amendment:
□ Correction of Sentence on Remand (18 U.S.C. 3742(f)(l) and (2))
□ Modification oflmposed Term oflmprisonment for Extraordinary and
Compelling Reasons (18 U.S.C. § 3582(c)(l))
□ Reduction of Sentence for Changed Circumstances (Fed. R. Crim. P. 35(b ))
□ Modification oflmposed Term oflmprisonrnent for Retroactive Amendment(s)
to the Sentencing Guidelines (18 U.S.C. § 3582(c)(2))
□ Correction of Sentence by Sentencing Court (Fed. R. Crim. P. 35(a))
□ Direct Motion to District Court Pursuant to
0 28 U.S.C. § 2255 or
□ Correction of Sentence for Clerical Mistake (Fed. R. Crim. P. 36)
0 18 U.S.C. § 3559(c)(7)
0 First Step Act
□ Modification of Supervision Conditions (18 U.S.C. §§ 3563(c) or 3583(e))
i:;sJModification of Restitution Order (18 U.S.C. § 3664)

UNITED STATES DISTRICT COURT
DISTRICT OF OREGON
UNITED STATES OF AMERICA

SECOND AMENDED JUDGMENT IN A
CRIMINAL CASE

Plaintiff,
v.

Case No.: 6:14-CR-00482-MC-1

DANIEL STEPHEN JOHNSON

USM Number: 76661-065
Kurt David Hermansen,
Defendant's Attorney

Defendant.

Amy E. Potter,
Assistant U.S. Attorney

THE DEFENDANT:
IZlwas found guilty on counts 1 - 8 of the Superseding Indictment after a plea of not guilty.
The defendant is adjudicated guilty of the following offense(s):

Title, Section & Nature of Offense

Date Offense Concluded

Count Number

18:2423(c) and (e)- Engaging in Illicit Sexual Conduct in a
Foreign Place

Beginning on or about 11/28/2005
and continuing until 11/12/2008

ls

18:2423(c) and (e) - Engaging in Illicit Sexual Conduct in a
Foreign Place

Beginning on or about 10/22/2009
and continuing until 12/9/2013

2s

18:2423(c) and (e) - Engaging in Illicit Sexual Conduct in a
Foreign Place

Beginning on or about 10/22/2009
and continuing until 12/9/2013

3s

18:2423(c) and (e) - Engaging in Illicit Sexual Conduct in a
Foreign Place

Beginning on or about 7/5/2011 and
continuing until 12/9/2013

4s

18:2423(c) and (e) - Engaging in Illicit Sexual Conduct in a
Foreign Place

Beginning on or about 12/22/2011
and continuing until 12/9/2013

5s

18:2423(c) and (e) - Engaging in Illicit Sexual Conduct in a
Foreign Place

Beginning on or about 8/24/2012 and
continuing until 12/9/2013

6s

Beginning on or about 10/22/2009
and continuing until 12/9/1013

7s

Beginning on or about 6/23/2011 and
continuing until 5/29/2013

8s

18:2423(b) - Travel with Intent to Engage in Illicit Sexual
Conduct
18:2241(c) - Aggravated Sexual Abuse

The defendant is sentenced as provided in pages 2 through 6 of this judgment. The sentence is imposed pursuant to the
Sentencing Refonn Act of 1984.
□ The

defendant has been found not guilty on count(s) and is discharged as to such count(s).

IZJCount 1 of the Indictment dismissed on the motion of the United States.

App-38

Case 6:14-cr-00482-MC

Document 328

Filed 07/30/19

Page 2 of 6
App-39

AO245C

Second Amended Judgment in a Criminal Case - DISTRICT OF OREGON CUSTOMIZED (Rev. 9/2017)
Sheet I

~The defendant shall pay a special assessment in the amount of$800.00 for Counts 1- 8 of the Superseding Indictment payable to
the Clerk of the U.S. District Court. (See also the Criminal Monetary Penalties Sheet.)
IT IS ORDERED that the defendant shall notify the United States Attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant shall notify the court and United States Attorney of any material change in the defendant's
economic circumstances.
January 18, 2019
Dalof Imposition of Sentence

- - - L,__.

Signature of Judicial Officer

Michael J. McShane, U.S. District Judge
Name and Title of Judicial Officer
July 1,-0, 2019
Date

App-39

Case 6:14-cr-00482-MC

Document 328

Filed 07/30/19

Page 3 of 6
App-40

AO 245B

Second Amended Judgment in a Criminal Case - DISTRICT OF OREGON CUSTOMIZED (Rev. 9/2017)
Sheet 2 - Im risonment
DEFENDANT: DANIEL STEPHEN JOHNSON
CASE NUMBER: 6: 14-CR-00482-MC-l

Judgment-Page 3 of 6

IMPRISONMENT
As to counts 1 thru 6 the defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a term
of thirty (30) years to served consecutive to each other. As to count 7 the defendant is hereby committed to the custody of the
Federal Bureau of Prisons to be imprisoned for a term of thirty (30) years to served concurrent to the sentence imposed in counts I
thru 6. As to count 8, the defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a term
oflife to be served concurrent to the sentence imposed in counts I thru 8.
~The court makes the following recommendations to the Bureau of Prisons:

~

I.

That the defendant be incarcerated in FCI Sheridan

2.

That deduction of funds for payment of restitution be prioritized over deductions from the inmate account for other
purposes.

The defendant is remanded to the custody of the United States Marshal.

D The defendant shall surrender to the custody of the United States Marshal for this district:
D at
on - - - - - - □

as notified by the United States Marshal.

D The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
D before
on _ _ _ _ _ __
D as notified by the United States Marshal.
D as notified by the Probation or Pretrial Services Office.
The Bureau of Prisons will determine the amount of prior custody that may be credited towards the service of sentence as authorized
by Title 18 USC §3585(b) and the policies of the Bureau of Prisons.

RETURN
I have executed this judgment as follows:

Defendant delivered on _ _ _ _ _ _ _ _ _ _ _ _ _ _ to _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __
a t - - - - - - - - - - - - - - ~ with a certified copy of this judgment.

UNITED STATES MARSHAL
By:
DEPUTY UNITED STATES MARSHAL

App-40

Case 6:14-cr-00482-MC

Document 328

Filed 07/30/19

Page 4 of 6
App-41

AO 245B

Second Amended Judgment in a Criminal Case - DISTRICT OF OREGON CUSTOMIZED (Rev. 9/2017)
Sheet 30 - Supervised Release
DEFENDANT: DANIEL STEPHEN JOHNSON
CASE NUMBER: 6: 14-CR-00482-MC-l

SUPERVISED RELEASE
No term of supervised release was imposed.

App-41

Judgment-Page 4 of 6

Case 6:14-cr-00482-MC

Document 328

Filed 07/30/19

Page 5 of 6
App-42

AO 245B

Second Amended Judgment in a Criminal Case - DISTRICT OF OREGON CUSTOMIZED (Rev. 9/2017)
Sheet 5 - Criminal Monetary Penalties
DEFENDANT: DANIEL STEPHEN JOHNSON
CASE NUMBER: 6: 14-CR-00482-MC-1

Judgment-Page 5 of 6

CRIMINAL MONETARY PENALTIES
The defendant shall pay the following total criminal monetary penalties in accordance with the Schedule of Payments set forth in this
judgment.
Assessment
(as noted on Sheet 1)
TOTALS

$0.00

$800.00

Restitution

TOTAL

$26,134.00

$26,934.00

□ The determination ofrestitution is deferred until _ _ _ _ _ _ _ . An Amended Judgment in a Criminal Case will be entered
after such determination.

~The defendant shall make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise
in the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all non-federal victims must be
paid in full prior to the United States receiving payment.
□ If applicable,

restitution amount ordered pursuant to plea agreement: $0.00.

□ The defendant must pay interest on any fine or restitution of more than $2,500, unless the fine or restitution is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(t). All of the payment options on the Schedule of Payments
may be subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

~The court determined that the defendant does not have the ability to pay interest and it is ordered that
~The interest is waived for the
□ The

□

fine and/or~ restitution.

interest requirement for the D fine and/or □ restitution is modified as follows:

See Amended Statement of Reasons for Complete List of Victims

Any payment shall be divided proportionately among the payees named unless otherwise specified.

App-42

Case 6:14-cr-00482-MC

Document 328

Filed 07/30/19

Page 6 of 6
App-43

AO 245B

Second Amended Judgment in a Criminal Case - DISTRICT OF OREGON CUSTOMIZED (Rev. 9/2017)
Sheet 6 - Schedule of Payments
DEFENDANT: DANIEL STEPHEN JOHNSON
CASE NUMBER: 6: 14-CR-00482-MC-1

Judgment-Page 6 of 6

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment 1 of the total criminal monetary penalties shall be as follows:
A.

□ Lump

sum payment of$_ _ _ _ due immediately, balance due
later than _ _ _ _, or
Din accordance with □ C, □ D, or □ E below; or
181Payment to begin immediately (may be combined with D C, D D, or D E below); or
□ If there is any unpaid balance at the time of defendant's release from custody, it shall be paid in monthly installments
of not less than$_ _~ or not less than 10% of the defendant's monthly gross earnings, whichever is greater, until
paid in full to commence immediately upon release from imprisonment.
□ Any balance at the imposition of this sentence shall be paid in monthly installments of not less than$, or not less than
10% of the defendant's monthly gross earnings, whichever is greater, until paid in full to commence immediately.
D Special instructions regarding the payment of criminal monetary penalties:
□ not

B.
C.

D.
E.

Unless the Court has expressly ordered otherwise in the special instructions above, if this judgment imposes a period of imprisonment,
payment of criminal monetary penalties, including restitution, shall be due during the period of imprisonment as follows: (1) 50% of
wages earned if the defendant is participating in a prison industries program; (2) $25 per quarter if the defendant is not working in a
prison industries program .. If the defendant received substantial resources from any source, including inheritance, settlement, or
other judgment, during a period of incarceration, the defendant shall be required to apply the value of such resources to any restitution
or fine still owed, pursuant to 18 USC§ 3664(n).
Nothing ordered herein shall affect the government's ability to collect up to the total amount of criminal monetary penalties imposed,
pursuant to any existing collection authority.
All criminal monetary penalties, including restitution, except those payments made through the Federal Bureau of Prisons' Inmate
Financial Responsibility Program, are made to the Clerk of Court at the address below, unless otherwise directed by the Court, the
Probation Officer, or the United States Attorney.
Clerk of Court
U.S. District Court - Oregon
405 E. 8th Ave., Ste. 2100
Eugene, OR 97401
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
□

Joint and Several

Case Number
Defendant and CoDefendant Names
(including Defendant number)

Total Amount

□The

defendant shall pay the cost of prosecution.

□ The

defendant shall pay the following court costs:

Joint and Several Amount

Corresponding Payee, if
appropriate

181The defendant shall forfeit the defendant's interest in the following property to the United States: One white iPhone
1

Payments shall be applied m the following order: (1) restitution principal, (2) restitution interest, (3) assessment, (4) fine principal,

(5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and court costs.

App-43

App-44

Statutory appendix

18 U.S. C. § 2423 (current) Transportation of minors
(a) Transportation with intent to engage in criminal sexual activity.--A person
who knowingly transports an individual who has not attained the age of 18 years in
interstate or foreign commerce, or in any commonwealth, territory or possession of
the United States, with intent that the individual engage in prostitution, or in any
sexual activity for which any person can be charged with a criminal offense, shall
be fined under this title and imprisoned not less than 10 years or for life.
(b) Travel with intent to engage in illicit sexual conduct.--A person who travels
in interstate commerce or travels into the United States, or a United States citizen
or an alien admitted for permanent residence in the United States who travels in
foreign commerce, with a motivating purpose of engaging in any illicit sexual
conduct with another person shall be fined under this title or imprisoned not more
than 30 years, or both.
(c) Engaging in illicit sexual conduct in foreign places.--Any United States
citizen or alien admitted for permanent residence who travels in foreign commerce
or resides, either temporarily or permanently, in a foreign country, and engages in
any illicit sexual conduct with another person shall be fined under this title or
imprisoned not more than 30 years, or both.
(d) Ancillary offenses.--Whoever, for the purpose of commercial advantage or
private financial gain, arranges, induces, procures, or facilitates the travel of a
person knowing that such a person is traveling in interstate commerce or foreign
commerce with a motivating purpose of engaging in illicit sexual conduct shall be
fined under this title, imprisoned not more than 30 years, or both.
(e) Attempt and conspiracy.--Whoever attempts or conspires to violate
subsection (a), (b), (c), or (d) shall be punishable in the same manner as a
completed violation of that subsection.
(f) Definition.--As used in this section, the term “illicit sexual conduct” means-(1) a sexual act (as defined in section 2246) with a person under 18 years of
age that would be in violation of chapter 109A if the sexual act occurred in
the special maritime and territorial jurisdiction of the United States;

App-44

App-45

(2) any commercial sex act (as defined in section 1591) with a person under
18 years of age; or
(3) production of child pornography (as defined in section 2256(8)).
(g) Defense.--In a prosecution under this section based on illicit sexual conduct as
defined in subsection (f)(2), it is a defense, which the defendant must establish by
clear and convincing evidence, that the defendant reasonably believed that the
person with whom the defendant engaged in the commercial sex act had attained
the age of 18 years.
CREDIT(S)
(June 25, 1948, c. 645, 62 Stat. 812; Pub.L. 95-225, § 3(a), Feb. 6, 1978, 92 Stat. 8;
Pub.L. 99-628, § 5(b)(1), Nov. 7, 1986, 100 Stat. 3511; Pub.L. 103-322, Title XVI,
§ 160001(g), Sept. 13, 1994, 108 Stat. 2037; Pub.L. 104-71, § 5, Dec. 23, 1995,
109 Stat. 774; Pub.L. 104-294, Title VI, §§ 601(b)(4), 604(b)(33), Oct. 11, 1996,
110 Stat. 3499, 3508; Pub.L. 105-314, Title I, § 103, Oct. 30, 1998, 112 Stat. 2976;
Pub.L. 107-273, Div. B, Title IV, § 4002(c)(1), Nov. 2, 2002, 116 Stat. 1808;
Pub.L. 108-21, Title I, §§ 103(a)(2)(C), (b)(2)(B), 105, Apr. 30, 2003, 117 Stat.
652, 653; Pub.L. 109-248, Title II, § 204, July 27, 2006, 120 Stat. 613; Pub.L. 1134, Title XII, § 1211(b), Mar. 7, 2013, 127 Stat. 142; Pub.L. 114-22, Title I, § 111,
May 29, 2015, 129 Stat. 240; Pub.L. 115-392, § 14, Dec. 21, 2018, 132 Stat. 5256.)

18 U.S.C. § 2423: Effective: July 27, 2006 to March 6, 2013
Transportation of minors
(a) Transportation with intent to engage in criminal sexual activity.--A person
who knowingly transports an individual who has not attained the age of 18 years in
interstate or foreign commerce, or in any commonwealth, territory or possession of
the United States, with intent that the individual engage in prostitution, or in any
sexual activity for which any person can be charged with a criminal offense, shall
be fined under this title and imprisoned not less than 10 years or for life.
(b) Travel with intent to engage in illicit sexual conduct.--A person who travels
in interstate commerce or travels into the United States, or a United States citizen
or an alien admitted for permanent residence in the United States who travels in

App-45

App-46

foreign commerce, for the purpose of engaging in any illicit sexual conduct with
another person shall be fined under this title or imprisoned not more than 30 years,
or both.
(c) Engaging in illicit sexual conduct in foreign places.--Any United States
citizen or alien admitted for permanent residence who travels in foreign commerce,
and engages in any illicit sexual conduct with another person shall be fined under
this title or imprisoned not more than 30 years, or both.
(d) Ancillary offenses.--Whoever, for the purpose of commercial advantage or
private financial gain, arranges, induces, procures, or facilitates the travel of a
person knowing that such a person is traveling in interstate commerce or foreign
commerce for the purpose of engaging in illicit sexual conduct shall be fined under
this title, imprisoned not more than 30 years, or both.
(e) Attempt and conspiracy.--Whoever attempts or conspires to violate
subsection (a), (b), (c), or (d) shall be punishable in the same manner as a
completed violation of that subsection.
(f) Definition.--As used in this section, the term “illicit sexual conduct” means (1)
a sexual act (as defined in section 2246) with a person under 18 years of age that
would be in violation of chapter 109A if the sexual act occurred in the special
maritime and territorial jurisdiction of the United States; or (2) any commercial sex
act (as defined in section 1591) with a person under 18 years of age.
(g) Defense.--In a prosecution under this section based on illicit sexual conduct as
defined in subsection (f)(2), it is a defense, which the defendant must establish by a
preponderance of the evidence, that the defendant reasonably believed that the
person with whom the defendant engaged in the commercial sex act had attained
the age of 18 years.
CREDIT(S)
(June 25, 1948, c. 645, 62 Stat. 812; Feb. 6, 1978, Pub.L. 95-225, § 3(a), 92 Stat. 8;
Nov. 7, 1986, Pub.L. 99-628, § 5(b)(1), 100 Stat. 3511; Sept. 13, 1994, Pub.L. 103322, Title XVI, § 160001(g), 108 Stat. 2037; Dec. 23, 1995, Pub.L. 104-71, § 5,
109 Stat. 774; Oct. 11, 1996, Pub.L. 104-294, Title VI, §§ 601(b)(4), 604(b)(33),
110 Stat. 3499, 3508; Oct. 30, 1998, Pub.L. 105-314, Title I, § 103, 112 Stat. 2976;
Nov. 2, 2002, Pub.L. 107-273, Div. B, Title IV, § 4002(c)(1), 116 Stat. 1808; Apr.
30, 2003, Pub.L. 108-21, Title I, §§ 103(a)(2)(C), (b)(2)(B), 105, 117 Stat. 652,
653, 654; July 27, 2006, Pub.L. 109-248, Title II, § 204, 120 Stat. 613.)

App-46

App-47

18 U.S.C. § 2241 Aggravated sexual abuse
(a) By force or threat.--Whoever, in the special maritime and territorial
jurisdiction of the United States or in a Federal prison, or in any prison, institution,
or facility in which persons are held in custody by direction of or pursuant to a
contract or agreement with the head of any Federal department or agency,
knowingly causes another person to engage in a sexual act-(1) by using force against that other person; or
(2) by threatening or placing that other person in fear that any person will be
subjected to death, serious bodily injury, or kidnapping; or attempts to do so,
shall be fined under this title, imprisoned for any term of years or life, or
both.
(b) By other means.--Whoever, in the special maritime and territorial jurisdiction
of the United States or in a Federal prison, or in any prison, institution, or facility
in which persons are held in custody by direction of or pursuant to a contract or
agreement with the head of any Federal department or agency, knowingly-(1) renders another person unconscious and thereby engages in a sexual act
with that other person; or
(2) administers to another person by force or threat of force, or without the
knowledge or permission of that person, a drug, intoxicant, or other similar
substance and thereby-(A) substantially impairs the ability of that other person to appraise or
control conduct; and
(B) engages in a sexual act with that other person;
or attempts to do so, shall be fined under this title, imprisoned for any term of
years or life, or both.
(c) With children.--Whoever crosses a State line with intent to engage in a sexual
act with a person who has not attained the age of 12 years, or in the special
maritime and territorial jurisdiction of the United States or in a Federal prison, or

App-47

App-48

in any prison, institution, or facility in which persons are held in custody by
direction of or pursuant to a contract or agreement with the head of any Federal
department or agency, knowingly engages in a sexual act with another person who
has not attained the age of 12 years, or knowingly engages in a sexual act under the
circumstances described in subsections (a) and (b) with another person who has
attained the age of 12 years but has not attained the age of 16 years (and is at least
4 years younger than the person so engaging), or attempts to do so, shall be fined
under this title and imprisoned for not less than 30 years or for life. If the defendant
has previously been convicted of another Federal offense under this subsection, or
of a State offense that would have been an offense under either such provision had
the offense occurred in a Federal prison, unless the death penalty is imposed, the
defendant shall be sentenced to life in prison.
(d) State of mind proof requirement.--In a prosecution under subsection (c) of
this section, the Government need not prove that the defendant knew that the other
person engaging in the sexual act had not attained the age of 12 years.
CREDIT(S)
(Added Pub.L. 99-646, § 87(b), Nov. 10, 1986, 100 Stat. 3620, and Pub.L. 99-654,
§ 2, Nov. 14, 1986, 100 Stat. 3660; amended Pub.L. 103-322, Title XXXIII, §
330021(1), Sept. 13, 1994, 108 Stat. 2150; Pub.L. 104-208, Div. A, Title I, §
101(a) [Title I, § 121[7(b)]], Sept. 30, 1996, 110 Stat. 3009, 3009-26, 3009-31;
Pub.L. 105-314, Title III, § 301(a), Oct. 30, 1998, 112 Stat. 2978; Pub.L. 109-162,
Title XI, § 1177(a)(1), (2), Jan. 5, 2006, 119 Stat. 3125; Pub.L. 109-248, Title II,
§§ 206(a)(1), 207(2), July 27, 2006, 120 Stat. 613, 615; Pub.L. 110-161, Div. E,
Title V, § 554, Dec. 26, 2007, 121 Stat. 2082.)

App-48

